APPENDIX-A
Order of the United States Court of Appeals for the Ninth
Circuit, Dated 11/05/2019, Affirming District Court Order

A - 1

('I OT «)

Case: 18-50332, 11/05/2019, ID: 11489231, DktEntry: 44-1, Page 1 of 4

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

NOV 5 2019

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,

No.

Plaintiff-Appellee,

MOLLY C. DWYER, CLERK
U S COURT OF APPEALS

18-50332

D.C. No.
3:16-cr-00729-BAS-l

v.

LAHKWINDER SINGH,

MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the Southern District of California
Cynthia A. Bashant, District Judge, Presiding
Argued and Submitted October 15, 2019*
Pasadena, California
Before: NGUYEN and MILLER, Circuit Judges, and VITALIANO,** District
Judge.
Appellant Lahkwinder Singh appeals from an order of forfeiture in the
amount of SI.955,521 imposed on him by the district court as part of his sentence
following conviction upon his plea of guilty to one count of structuring currency

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36 - j.
**

The Honorable Eric N. Vitaliario. United States District Judge for the
Eastern District of New York, sitting by designation.

>

-Page 1 of 4

(/ or«)
Case: 18-50332. 11/05/2019, ID: 11489231, DktEntry: 44-1, Page 2 of 4

transactions to evade reporting requirements, in violation of 31 U.S.C. §§ 5324
(a)(3) and (d)(2). The sole question presented on appeal is whether the forfeiture
amount was so grossly disproportional to his offense that it contravenes the Eighth
Amendment. Exercising jurisdiction under 28 U.S.C. §§ 1291 and 1294, we
affirm.
Although courts are not bound by “any rigid set of factors” in determining
the propriety of a challenge to an order of criminal forfeiture imposed at sentence.
we look for guidance to those applied in United Slates v. Baja/cajian, 524 U.S. 321
(1998): “(1) the nature and extent of the crime, (2) whether the violation was
related to other illegal activities, (3) the other penalties that may be imposed for the
violation, and (4) the extent of the harm caused.” United Stales v. $100,348.00 in
U.S. Currency.. 354 F.3d 1110, 1 121-22 (9th Cir. 2004) (citing Bajakajian. 524
U.S. at 337-40). In making this determination, we review a district court’s
interpretation of federal criminal forfeiture law de novo and its findings of fact for
clear error. Bajakajian, 524 U.S. at 337 n.10.
In assessing whether an order of forfeiture is grossly disproportional, we
consider, , in part, the nature of the crime, wary of Bajakcijiaris admonition that
isolated reporting offenses do not often constitute serious crimes. See, e.g.. United
Stales v. $132,245.00 in U.S. Currency, 764 F.3d 1055, 1058 (9th Cir. 2014);
$ 100,348.00 in U.S. Currency, 354 F.3d at 1122. Significantly, although he did

2

Page 2 of 4

(3 or tij
Case: 18-50332. 11/05/2019, ID: 11489231, DktEntry: 44-1. Page 3 of 4

not plead guilty to drug trafficking, Singh does not dispute that his structuring
activity was related to illicit drug proceeds. His offense of structuring was, thus, a
far cry from a single failure to report cash; the totality of his related conduct
evidences serious criminality.
Determination of the severity of an offender’s criminal culpability for
forfeiture purposes requires consideration of other authorized penalties for the
crime of conviction, as reflected in the applicable maximum guidelines penalties,
because those guidelines reflect legislative judgment as to the appropriateness of
punishment and because they “take into account the specific culpability of the
offender.

$ 100,348.00 in US. Currency, 354 F.3d at 1122. Singh’s crime carried

maximum guidelines punishments of 71 months of imprisonment and a $100,000
fine. Although the forfeiture exceeded the maximum guidelines fine by a factor of
almost 20, our consideration cannot be so limited. See United States v. Mackby,
339 F.3d 1013, 1018 (9th Cir. 2003) (upholding a civil forfeiture amount
approximately ten times greater than the maximum guideline financial penalty). A
71-month maximum term of imprisonment is strong evidence of the severity of
Singh’s culpability. See id. (urging consideration of "the full criminal penalty'’).
furthermore, in determining the appropriateness of forfeiture, it will not go
unnoticed that a reporting violation causes significant harm when the currency that
would have otherwise gone undetected was, more likely than not, connected to

Page 3 of 4

(4 or«)
Case: 18-50332, 11/05/2019, ID: 11489231, DktEntry: 44-1, Page 4 of 4

drug trafficking. $132,245.00 in U.S. Currency, 764 F.3d at 1061; see also United
States v. Chaplin’s. Inc.. 646 F.3d 846, 853 (1 llh Cir. 2011) (“Attempting to hide
drug money is harmful in and of itself"). That every structured dollar, or even a
majority of the structured funds, was not directly traceable to Singh’s drug
shipments is of little consequence, for the scheme as a whole perpetuated drug­
trafficking.
As a final matter. Singh asks us to consider financial hardship in our
analysis. We have not squarely addressed whether such consideration is required
or even proper where a forfeiture order is challenged as excessive, and we decline
to do so here. Because the four Bajctkajian factors weigh so heavily in favor of the
forfeiture amount, any finding that Singh may suffer some financial hardship,
which is a reality in almost every case, would not tip the scales in his favor.
AFFIRMED.

4

Page 4 of 4

APPENDIX-B
Order of the United States Court of Appeals for the Ninth
Circuit, Dated 1/15/2020, Denying Rehearing Request

A - 2

UNITED STATES COURT OF APPEALS
JAN 15 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appel lee,
v.

No.

18-50332

D.C. No.
3:16-C1--00729-BAS-1
Southern District of California,
San Diego

LAHKWINDER SINGH,
ORDER
Defendant-Appellant.
Before: NGUYEN and MILLER, Circuit Judges, and VITALIANO,* District
Judge.
The panel voted to deny Appellant’s petition for panel rehearing.
Appellant’s petition for panel rehearing is denied.

The Honorable Eric N. Vitaliano, United States District Judge for the
Eastern District of New York, sitting by designation.
Page 1 of 1

APPENDIX-C
Plea Agreement, Lahkwinder Singh, Pages 1 through 15

A - 3

1 ALANA W. ROBINSON
Acting United States Attorney
2 Orlando B. Gutierrez
Daniel C. Silva
3 Assistant United States Attorneys
California Bar Nos. 183745/264632
4 Federal Office Building
880 Front Street Room 6293
5 San Diego, California 92101-8893
Telephone: (619) 546-6958
6 Email: Orlando.Gutierrez@usdoj .gov
7 Attorneys for United States of America
8

UNITED STATES DISTRICT COURT

9

SOUTHERN DISTRICT OF CALIFORNIA

10
11

UNITED STATES OF AMERICA,
Plaintiff,

12
13
14
15

Case No. 16-cr-0729-BAS
PLEA AGREEMENT

v.
LAHKWINDER SINGH (1),
aka “Victor”,
Defendant.

16

IT IS HEREBY AGREED between the plaintiff, UNITED STATES OF AMERICA,
17
lg through its counsel, Aana W. Robinson, Acting United States Attorney, and Orlando B.
19 Gutierrez and Daniel C. Silva, Assistant United States Attorneys, and Defendant
20 LAHKWINDER SINGH, aka “Victor”, with the advice and consent of Robert E. Boyce,
21 counsel for Defendant, as follows:
22

I

23

THE PLEA

24

A.

THE CHARGE

25

Defendant agrees to plead guilty to Count 6 of the Second Superseding Indictment

26 charging Defendant with:
27
28

Beginning no later than December 27, 2011, and continuing up to and
including January 29, 2014, within the Southern District of California,
defendants LAHK WINDER SINGH, aka Victor, and LOVELY SINGH,
Plea Agreement

Page 1 of 15

Def. Initials_0

1
2
3
4

5
6
7
8

9
10
11
12
13
14
15
16
17
18
19
20

21
22

INC., for the purpose of evading the reporting requirements of Title 31, United
States Code. Section 5313, and the regulations prescribed under such section, S3&
did structure and attempt to structure approximately $2,955,521 in currency
transactions with Bank of America, N.A., Wells Fargo Bank, N.A., JP Morgan
Chase, N.A., and Union Bank, N.A., all domestic financial institutions, on or
about the dates, approximately for the amounts, in the manner, and at the
domestic financial institutions listed in Schedule A [of the Second
Superseding Indictment], for the purpose of causing said domestic financial
institutions to fail to file a report required under Title 31, United States Code,
Section 5313(a), and the regulations promulgated thereunder, and did so as
part of a pattern of illegal activity involving more than $ 100,000 in a 12-month
period; all in violation of Title 31, United States Code, Section 5324(a)(3) and
(d)(2).
S3/S («■)
JQ
The United States agrees to (1) move to dismiss the remaining charges without
prejudice when Defendant is sentenced, and (2) not prosecute Defendant thereafter on such
dismissed charges unless Defendant breaches the plea agreement or the guilty plea entered
pursuant to this plea agreement is set aside for any reason. If Defendant breaches this
agreement or the guilty plea is set aside, section XII below shall apply.
This plea agreement is part of a “package” disposition as set forth in Section VI.E
below. In addition, the attached Forfeiture Addendum shall govern forfeiture in this case.
B.

TIMELINESS / OFFER REVOCATION

The disposition contemplated by this agreement is conditioned on the following: (i)
the United States’ receipt of a singed Plea Agreement and Forfeiture Addendum for
Defendant and co-defendant LOVELY SINGPI, INC., by no later than 5;00 pm on
October 20,2017; and (ii) Defendant entering a guilty plea in this case before a Magistrate
Judge on or before November 3,2017.
II

23

NATURE OF THE OFFENSE

24

25
26
27
28

A.

ELEMENTS EXPLAINED

Defendant understands that the offense to which Defendant is pleading guilty in
Count 6 of the Second Superseding Indictment has the following elements :
1.

Beginning no later than December 27, 2011, and continuing up to and

Plea Agreement

2
Page 2 of 15

£

Def. Initials
16CR0729-BAS

1

including January 29, 2014 for the purpose of evading the reporting requirements of

2

Title 31, United States Code, Section 5313, and the regulations prescribed under

3

such section;

•4

2.

Defendant did structure and attempt to structure $2,955,521 in currency

5

transactions with domestic financial institutions; and

6

3.

7

a 12-month period.

8

B.

9

Defendant has fully discussed the facts of this case with defense counsel. Defendant

Did so as part of a pattern of illegal activity involving more than $100,000 in

ELEMENTS UNDERSTOOD AND ADMITTED - FACTUAL BASIS

10 has committed each element of the crime and admits that there is a factual basis for this
11 guilty plea. The following facts are tme and undisputed:
12

1.

Beginning no later than 2010 and continuing up to and including September

13

2016, Defendant Lahkwinder Singh, aka “Victor”, managed and operated multiple

14.

Postal Annex stores, a commercial shipping service provider (the “Postal Annexes’"),

15

each located within the Southern District of California.

16

2.

17

2016, Singh was a shareholder in Lovely Singh. Inc., and its Chief Financial Officer

18

and Secretary.

19

3.

20

authorized it to operate the Postal Annexes.

21

4.

22

For a fee, the Postal Annexes would package and ship items via various commercial

23

carriers, including but not limited to Federal Express, United Parcel Service, and the

24

U.S. Postal Service.

25

5.

26

2016, within the Southern District of California, and elsewhere, Singh and Nava

27

distributed Schedule II controlled substances from the Postal Annexes to persons

28

located throughout the United States (the “Purchasers”); in that, prior to the shipment

Beginning no later than 2004 and continuing up to and including September

Co-defendant Lovely Singh, Inc, was a party to a franchise agreement that

Co-defendant Alejandro Nava was Singh’s employee at the Postal Annexes.

Beginning on an unknown date and continuing up to and including March 10,

Plea Agreement

3
Page 3 of 15

Def. Initials (jj
16CR0729-BAS

2

of controlled substances, Singh and Nava would receive client shipping lists from
individuals operating from within Mexico. Both Singh and Nava would then use

3

these client shipping lists to pre-print and prepare commercial shipping labels for

4

packages that would be used to fulfill orders placed by the Purchasers.

5

6.

6

United States from Mexico, and delivered them to the Postal Armex&s^JJsu^pre-

7

printed shipping labels, co-defendants Singh and Nava would prepare packages for

8

shipment to the Purchasers from the Postal Annexes, which were shipped viavarious

9

commercial shipping services in an attempt to avoid drawing attention to the

1

Couriers imported pre-packaged quantities of controlled substances into the

10

packages.

11

7.

12

that the hundreds of packages sent from the Postal Annexes contained a prohibited

13

controlled substance, and he deliberately avoided learning the truth of their contents.

14

8.

15

packages to the Purchasers, the Postal Annexes also conducted large cash

16

transactions generated from its operations as a money services business, as

17

supervised, managed, and coordinated by Singh. These cash proceeds were regularly

18

deposited by Singh into bank accounts located throughout the Southern District of

19

California, in the name of Singh and co-defendant Lovely Singh, Inc.

20

9.

21

Singh, Inc. with the Financial Crimes Enforcement Network (“FinCEN”) as a

22

Money Services Business; thereby obtaining a license known as an “RMSB”, with

23

the following stated money services business activities: money transmitter; redeemer

24

of money orders; issuer of money orders; and seller of money orders. Singh was

25

listed as the “Owner or Controlling Person” on the RMSB.

26

10.

27

Singh, Inc.’s Anti-Money Laundering and Bank Secrecy Act (“AML/BSA”) Officer,

28

• which required him to ensure that the Postal Annexes maintained an adequate
Def. Initials Q
4
Plea Agreement
Page 4 of 15
16CR0729-BAS

Over the course of 2011 through 2016 Singh was aware of a high probability

In addition to receiving cash for the shipment of the controlled substances

By no later than October 7, 2006, Singh had registered co-defendant Lovely

Singh registered himself with FinCEN on the RMSB as co-defendant Lovely

2

AML/BSA program.
11. Singh received regular training on AML/BSA issues from an international

3

financial services and money transmitting corporation, for which co-defendant

4

Lovely Singh, Inc. was an agent. The training Singh received included the

5

obligations imposed on domestic financial institutions to report certain cash

6

transactions to the Department of Treasury, including under Title 31, United States

7

Code, Section 5313, and the regulations prescribed under such section.

8

12.

9

Lovely Singh, Inc. was to provide AML/BSA training to all new employees at the

1

One of Singh’s duties as the RMSB AML/BSA Officer for co-defendant

10

Postal Annexes.

11

13.

12

including January 29, 2014, within the Southern District of California, Singh knew

13

about the reporting requirements of Title 31, United States Code, Section 5313, and

14

the regulations prescribed under such section, which generally required a domestic

15

financial institution to file a report with the Department of Treasury for cash

16

transactions of $10,000 or more in any given banking day.

17

14.

18

Code, Section 5313, and the regulations prescribed under such section, Singh did

19

structure and attempt to structure up to $2,955,521 in currency transactions with

20

several domestic financial institutions, including Bank of America, N.A., Wells

21

Fargo Bank, N.A., JP Morgan Chase, N.A., and Union Bank, N.A. (the “Financial

22

Institutions”), into accounts controlled by Singh and co-defendant Lovely Singh,

23

Inc.

24

15.

25

conducted multiple deposits of less than $10,000 in cash on the same day, and over

26

the course of several business days into accounts controlled by Singh and co-

27

defendant Lovely Singh, Inc. — for the purpose of causing the Financial Institutions

28

to fail to file a report required under Title 31, United States Code, Section 5313(a),

Beginning no later than December 27, 2011, and continuing up to and

With the knowledge of the reporting requirements of Title 31, United States

Singh structured cash deposits at the Financial Institutions — that is, he

Plea Agreement

5
Page 5 of 15

Def. Initials
__
16CR072I&AS

1
2
3

and the regulations promulgated thereunder. The structured deposits were part of a
<53<2^.
^
pattern of illegal activity involving more than $100,000 in a 12-month period.
16. In light of Singh’s role as the^ackag^nd shipper of hundreds of packages

4

to the Purchasers, the RMSB AML/BSA Officer for co-defendant Lovely Singh,

5

Inc., and the person who conducted all of the structured cash deposits at the Financial

6

Institutions, Singh knew or believed that the funds were__pi[uj^eds„o_f .unlawful

7

activity, or were intended to promote unlawful activity.

S

17.

9

the owner and controlling person on the RMSB, Singh abused a position of public

10

trust, and used a special skill, in a manner that significantly facilitated the

11

commission or concealment of the structuring alleged in Count 6 of the Second

12

Superseding Indictment.

As the RMSB AML/BSA Officer for co-defendant Lovely Singh, Inc., and as

13

III

14

PENALTIES

15

The crime to which Defendant is pleading guilty carries the following penalties:

16

A.

a maximum 10 years in prison;

17

B.

a maximum $500,000 fine;

18

C.

a mandatory special assessment of $100 per count;

19

D.

forfeiture of all property, real or personal, involved in the offense and any
property traceable thereto; and

20
21

E.

a term of supervised release of up to 3 years. Failure to comply with any

22

condition of supervised release may result in revocation of supervised release,

23

requiring Defendant to serve in prison, upon revocation, all or part of the

24

statutoiy maximum term of supervised release.

IV

25

DEFENDANT’S WAIVER OF TRIAL RIGHTS AND
UNDERSTANDING OF CONSEQUENCES

26
27
28

This guilty plea waives Defendant’s right at trial to:
Continue to plead not guilty and require the United States to prove the
Def. Initials Q
6
Plea Agreement
Page 6 of 15
16CR0729-B AS
A.

elements of the crime beyond a reasonable doubt;

1
2

B.

A speedy and public trial by jury;

3

C.

The assistance of counsel at all stages;

4

D.

Confront and cross-examine adverse witnesses;

5

E.

Testify and present evidence and to have witnesses testify on behalf of
Defendant; and

6
7

F.

Not testify or have any adverse inferences drawn from the failure to testify.

8

y

9
10

DEFENDANT ACKNOWLEDGES NO PRETRIAL RIGHT TO BE
PROVIDED WITH IMPEACHMENT AND AFFIRMATIVE DEFENSE
INFORMATION

11

Any information establishing the factual innocence of Defendant known to the

12 undersigned prosecutor in this case has been turned over to Defendant. The United States
13 will continue to provide such information establishing the factual innocence of Defendant.
14

If this case proceeded to trial, the United States would be required to provide

15 impeachment information for its witnesses. In addition, if Defendant raised an affirmative
16 defense, the United States would be required to provide information in its possession that
17 supports such a defense. By pleading guilty Defendant will not be provided this
18 information, if any, and Defendant waives any right to this information. Defendant will not
19 attempt to withdraw the guilty plea or to file a collateral attack based on the existence of
20 this information.

VI

21

DEFENDANT’S REPRESENTATION THAT GUILTY
PLEA IS KNOWING AND VOLUNTARY

22
23

Defendant represents that:

24

A.

25
26
27
28

Defendant has had a full opportunity to discuss all the facts and circumstances
of this case with defense counsel and has a clear understanding of the charges
and the consequences of this plea. By pleading guilty, Defendant may be
giving up, and rendered ineligible to receive, valuable government benefits
and civic rights, such as the right to vote, the right to possess a firearm, the
right to hold office, and the right to serve on a juiy. The conviction in this case
may subject Defendant to various collateral consequences, including but not
limited to revocation of probation, parole, or supervised release in another
case; debarment from government contracting; and suspension or revocation

Plea Agreement

7
Page 7 of 15

Def. Initials C

_

16CR0729-BAS

of a professional license, none of which can serve as grounds to withdraw
Defendant’s guilty plea.

1
2

B.

No one has made any promises or offered any rewards in return for this guilty
plea, other than those contained in this agreement or otherwise disclosed to
the Court.

C.

No one has threatened Defendant or Defendant’s family to induce this guilty
plea.

D.

Defendant is pleading guilty because Defendant is guilty and for no other
reason.

E.

Theposition with co-defendant LONELY slkoELINC- if any defendant in the
dis
package fails to perform or breaches any part of their agreement no defendant
can withdraw their guilty plea, but the United States is relieved from and not
bound by any terms in any agreements in the package.

3
4

5
6
7

8
9
10

VII

11

AGREEMENT LIMITED TO U.S. ATTORNEYS OFFICE
SOUTHERN DISTRICT OF CALIFORNIA

12
13

This plea agreement is limited to the United States Attorney’s Office for the

14 Southern District of California, and cannot bind any other authorities in any type of matter,
15 although the United States will bring this plea agreement to the attention of other
16 authorities if requested by Defendant.
17

VIII

18

APPLICABILITY OF SENTENCING GUIDELINES

19

The sentence imposed will be based on the factors set forth in 18 U.S.C. §J3,553(a).

20 In imposing the sentence, the sentencing judge must consult the United States Sentencing

21 Guidelines (Guidelines) and take them into account. Defendant has discussed the
22 Guidelines with defense counsel and understands that the Guidelines are only advisory, not
23 mandatory. The Court may impose a sentence more severe or less severe than otherwise
24 applicable under the Guidelines, up to the maximum in the statute of conviction. The
25 sentence cannot be determined until a presentence report is prepared by the U.S. Probation

26 Office and defense counsel and the United States have an opportunity to review and
27 challenge the presentence report. Nothing in this plea agreement limits the United States’
28 duty to provide complete and accurate facts to the district court and the U.S. Probation
Def. Initials
_
8
Plea Agreement

Page 8 of 15

16CR0729-BAS

/

1 Office.
2

IX

3

SENTENCE IS WITHIN SOLE DISCRETION OF JUDGE

4

This plea agreement is made pursuant to Federal Rule of Criminal Procedure

5

11(c)(1)(B). The sentence is within the sole discretion of the sentencing judge who may

6 impose the maximum sentence provided by statute. It is uncertain at this time what
7 Defendant’s sentence will be. The United States has not made and will not make any

8 representation about what sentence Defendant will receive. Any estimate of the probable
9 sentence by defense counsel is not a promise and is not binding on the Court. Any
10 recommendation by the United States at sentencing also is not binding on the Court. If the
11 sentencing judge does not follow any of the parties’ sentencing recommendations,
12 Defendant will not withdraw the plea.
13

X

14

PARTIES’ SENTENCING RECOMMENDATIONS

15

A.

SENTENCING GUIDELINE CALCULATIONS

16

Although the Guidelines are only advisory and just one factor the Court will consider

17 under 18 U.S.C. § 3553(a) in imposing a sentence, the parties will jointly recommend the
18 following Base Offense Level, Specific Offense Characteristics, Adjustments, and
19 Departures:
20

1.

21

2.

3.

22

Base Offense Level [§ 2S1.3(a)(2)]
Increase [§2S 1.3(a)(2)/§2B 1.1 (J)]
Proceeds of Unlawful Activity
[§ 2S1.3(b)(1)(A)]
Pattern of Unlawful Activity > $ 100,000
[§ 2S1.3(b)(2)]
Abuse of Position of Trust [§ 3B1.3]
Acceptance of Responsibility [§ 3E1.1 ]

/L
.6 .
+18*) /
+2

23

4.

24

25

5.
6.

26

^Defendant may argue that the increase to the Base Offense Level under USSG

+2

+2
-3

27 §2S1.3(a)(2)/§2Bl.l should be for 16 levels, which the United States may oppose.
28 III
Plea Agreement

9
Page 9 of 15

0

Def. Initials
16CR0729-BAS

1

B.

ACCEPTANCE OF RESPONSIBILITY

2

Despite paragraph A above, the United States need not recommend an adjustment

3 for Acceptance of Responsibility if Defendant engages in conduct inconsistent with
4 acceptance of responsibility including, but not limited to, the following:

1.

5

Fails to truthfully admit a complete factual basis as stated in the plea at

6

the time the plea is entered, or falsely denies, or makes a statement

7

inconsistent with, the factual basis set forth in this agreement;

8

2.

Falsely denies prior criminal conduct or convictions;

9

3.

Is untruthful with the United States, the Court, or probation officer;

10

4.

Breaches this plea agreement in any way; or

11

5.

Contests or assists any third party in contesting the forfeiture of
property(ies) to which Defendant or any co-defendant has agreed to

12
13
14
15

C.

forfeit.
FURTHER ADJUSTMENTS AND SENTENCE
INCLUDING THOSE UNDER 18 U.S.C. $ 3553

REDUCTIONS

Defendant may request or recommend additional downward adjustments,

16 departures, or variances from the Sentencing Guidelines under 18 U.S.C. § 3553. The
17 United States will oppose any downward adjustments, departures, or variances not set forth
18 in Section X, paragraph A above.
19

D.

NO AGREEMENT AS TO CRIMINAL HISTORY CATEGORY

20

The parties have no agreement as to Defendant’s Criminal Histoiy Category.

21

E.

22

The facts in the “factual basis” paragraph of this agreement are true and may be

23

considered as “relevant conduct” under USSG § IB 1.3 and as to the nature and

“FACTUAL BASIS” AND “RELEVANT CONDUCT” INFORMATION

24 circumstances of the offense under 18 U.S.C. § 3553(a)(1). The parties further agree that

25 each may offer additional evidence at the sentencing hearing regarding the total amount of
26 currency structured in violation of Title 31, United States Code, Section 5324, and
27 Defendant’s role therein, as “relevant conduct” under USSG § IB 1.3 and as to the nature

. 28 and circumstances of the offense under 18 U.S.C. § 3553(a)(1).
10
Plea Agreement
Page 10 of 15

Def. Initials (ft)
16CR0729-BAS

1

F.

PARTIES’ RECOMMENDATIONS REGARDING CUSTODY

2

The United States will recommend that Defendant be sentenced to the low end of

3 the advisory guideline range recommended by the United States at sentencing.
4

G.

1.

5

6

SPECIAL ASSESSMENT/FINE/RESTITUTION/FORFEITURE
Special Assessment

The parties will jointly recommend that Defendant pay a special assessment in the

7 amount of $100 per felony count of conviction to be paid forthwith at time of sentencing.
8 Special assessments shall be paid through the office of the Clerk of the District Court by

9 bank or cashier’s check or money order made payable to the “Clerk, United States District
10 Court.”
2.

11
12

Fine

The parties will jointly recommend that Defendant pay no fine in light of the

13 forfeiture to be paid by Defendant and co-defendant Lovely Singh, Inc., as detailed in the
14 attached Forfeiture Addendum.
3.

15
16

Forfeiture

Defendant consents to the forfeiture allegations of the Second Superseding

17 Indictment and consents to the forfeiture of up to $2,955,521 pursuant to Title 31, United
18 States Code, Section 5317(c)(1). Defendant agrees that the provisions of the attached
53/7(&X/\

Forfeiture Addendum shall govern forfeiture in this case. Defendant further agrees not to

20 contest or assist anyone in contesting the forfeiture of any properties seized or forfeited in

21 connection with this case, except that Defendant reserves the right to challenge any
22 forfeiture in this case pursuant to the excessive fines clause of the Eighth Amendment of
23 the United States Constitution at the sentencing hearing. The United States may oppose
24 Defendant’s lone available challenge to the forfeiture.

25

H.

SUPERVISED RELEASE

26

If the Court imposes a term of supervised release, Defendant will not seek to reduce

27 or terminate early the term of supervised release until Defendant has served at least 2/3 of
28 the term of supervised release and has fully paid and satisfied any special assessments, fine,

Plea Agreement

11

Page 11 of 15

Def. Initials
16CR0729-BAS

1 criminal forfeiture judgment, and restitution judgment.
2

XI

3

DEFENDANT WAIVES APPEAL AND COLLATERAL ATTACK

4
5
6
7
8
9
10
11
12
13
14
15
. 16
17
18
19
20

Defendant waives (gives up) all rights to appeal and to collaterally attack every
aspect of the conviction and sentence, including any forfeiture order. The only exceptions
are: (i) Defendant may appeal on the sole ground that the final order of forfeiture violates
the excessive fines clause of the Eighth Amendment of the Constitution; and (ii) Defendant
may collaterally attack the conviction or sentence on the basis that Defendant received
ineffective assistance of counsel. If Defendant appeals, the United States may support on
appeal the sentence or forfeiture order actually imposed.
XII

BREACH OF THE PLEA AGREEMENT
Defendant and Defendant’s attorney know the terms of this agreement and shall
raise, before the sentencing hearing is complete, any claim that the United States has not
complied with this agreement. Otherwise, such claims shall be deemed waived (that is,
deliberately not raised despite awareness that the claim could be raised), cannot later be
made to any court, and if later made to a court, shall constitute a breach of this agreement.
Defendant breaches this agreement if Defendant violates or fails to perform any
obligation under this agreement. The following are non-exhaustive examples of acts
constituting a breach:

21

1.

Failing to plead guilty pursuant to this agreement;

22

2.

Failing to fully accept responsibility as established in Section X,
paragraph B, above;

23
24

3.

Failing to appear in court;

25

4.

Attempting to withdraw the plea;

26

5.

Failing to abide by any court order related to this case;

27

6.

Appealing (which occurs if a notice of appeal is filed) or collaterally

Plea Agreement

attacking the conviction or sentence in violation of Section XI of this
Def. Initials 0
12
Page 12 of 15
16CR0729-BAS

28

plea agreement;

1
2

7.

Failing to comply with the terms of the attached Forfeiture Addendum,

3

or contesting or assisting anyone in contesting the forfeiture in breach

4

of the provisions of this agreement or the attached Forfeiture

5

Addendum; or

6
7

8

8.

Engaging in additional criminal conduct from the time of arrest until
the time of sentencing.

If Defendant breaches this plea agreement, Defendant will not be able to enforce any

9 provisions, and the United States will be relieved of all its obligations under this plea
10 agreement. For example, the United States may proceed to sentencing but recommend a
11 different sentence than what it agreed to recommend above. Or the United States may
12 pursue any charges including those that were dismissed, promised to be dismissed, or not
13 filed as a result of this agreement (Defendant agrees that any statute of limitations relating
14 to such charges is tolled indefinitely as of the date all parties have signed this agreement;
15 Defendant also waives any double jeopardy defense to such charges). In addition, the
16 United States may move to set aside Defendant’s guilty plea. Defendant may not withdraw
17 the guilty plea based on the United States’ pursuit of remedies for Defendant’s breach.
18

Additionally, if Defendant breaches this plea agreement: (i) any statements made by

19 Defendant, under oath, at the guilty plea hearing (before either a Magistrate Judge or a
20 District Judge) and the sentencing hearing; (ii) the factual basis statement in Section II.B

21 in this agreement; and (iii) any evidence derived from such statements, are admissible
22 against Defendant in any prosecution of, or any action against, Defendant. This includes
23 the prosecution of the charge(s) that is the subject of this plea agreement or any charge(s)
24 that the prosecution agreed to dismiss or not file as part of this agreement, but later pursues

25 because of a breach by the Defendant. Additionally, Defendant knowingly, voluntarily, and
26 intelligently waives any argument that the statements and any evidence derived from the
27 statements should be suppressed, cannot be used by the United States, or are inadmissible

28 under the United States Constitution, any statute, Rule 410 of the Federal Rules of
Def. Initials
13
Plea Agreement
Page 13 of 15
16CR0729-B AS

1 Evidence, Rule 11(f) of the Federal Rules of Criminal Procedure, and any other federal
2 rule.
3

XIII

4

CONTENTS AND MODIFICATION OF AGREEMENT
This plea agreement embodies the entire agreement between the parties mid

5

6 supersedes any other agreement, written or oral. No modification of this plea agreement
7 shall be effective unless in writing signed by all parties.

8

XIV

9

DEFENDANT AND COUNSEL FULLY UNDERSTAND AGREEMENT
By signing this agreement, Defendant certifies that Defendant has read it (or that it

10

11 has been read to Defendant in Defendant’s native language). Defendant has discussed the
12 terms of this agreement with defense counsel and fully understands its meaning and effect.
13

///

14 III
15
16
17
18
19
20

21
22
23
24

25
26
27

28
Plea Agreement

14
Page 14 of 15

£

Def. Initials
16CR0729-BAS

1

XV

2

DEFENDANT SATISFIED WITH COUNSEL
Defendant has consulted with counsel and is satisfied with counsel’s representation.

3

4 This is Defendant’s independent opinion, and Defendant’s counsel did not advise
•

5 Defendant about what to say in this regard.

6

ALANA W. ROBINSON
Acting United States Attorney

7
8

9

DATED

Orlando B. Gutierrez
Daniel C. Silva
Assistant U.S. Attorneys

10
11
12

/*//<? // 7
DATED

Robert E. Boyce
Defense Counsel

'

13 IN ADDITION TO THE FOREGOING PROVISIONS TO WHICH I AGREE, I SWEAR
UNDER PENALTY OF PERJURY THAT THE FACTS IN THE “FACTUAL BASIS”
14 SECTION ABOVE ARE TRUE.

I)

15
16 DATE
17

Lahkwmder Singh, aka “'Victor”
Defendant

18 Approved By:
19
20 BLAIR C. PEREZ

21

Assistant U.S. Attorney

22
23
24

25
26
27
28

Plea Agreement

15
Page 15 of 15

Def. Initials
i^rnfmo-RAs:

APPENDIX-D
Forfeiture Addendum, Lahkwinder Singh, Pages 1 through 4

A - 4

OCT 31 2017
FORFEITURE ADDENDUM

1

OURT

. CLlUK
SOUTHERN
BY

2

Defendant’s conviction will include forfeiture. This forfeiture addendum is incorpo­

3

rated into and part of Defendant’s plea agreement, and the additional terms and warnings
i

4 below apply.

5

A.

Penalty. In addition to the penalties in the plea agreement, federal law states

6 that a guilty plea as to Count 6 of the Second Superseding Indictment mandates that De­
7 fendant must forfeit all property, real or personal, involved in the offense and any property
i

1

8 traceable thereto.
Property Subject to Forfeiture. As part of Defendant’s guilty plea to Count 6
B.
9
10 of the Second Superseding Indictment, as set forth in section I of the plea agreement, Dei
11 fendant, and all shareholders of Defendant, agree to forfeit $2,955,521, via entry of a
12 money judgment against Defendant in a preliminary order of forfeiture. Defendant, how13 ever, reserves the right to contest the total amount of the money judgement, before entry
ji

14 of a final order of forfeiture, solely upon the ground that the forfeiture of $2,955,521 con­
15 stitutes an excessive fine under the Eighth Amendment of the United States Constitution
16 at the sentencing hearing. Defendant, and all shareholders of Defendant, understand the
17 United States may seek forfeiture in the entire amount and will ^oppose Defendant’s posi!i
18 tion. Notwithstanding the Court’s imposition of a forfeiture judgment in any amount, De|

19 fendant, and all shareholders of Defendant, understand it will not be able to withdraw its
20 guilty plea.
21

C.

Basis of Forfeiture. The money judgment against Defendant represents mon­

22 ies subject to forfeiture to the United States as property involved in the illegal conduct in
23

I
violation of Title 31, United States Code, Section 5324(a)(3) and is subject to forfeiture to

24 the United States pursuant to Title 31, United States Code, Section 5317(c)(1).
ii

25

D.

Immediate Entry of an Order of Forfeiture. Defendant, and all shareholders of

26 Defendant, consent and agree to the immediate entry of an order of forfeiture upon entry
27 of the guilty plea. Defendant, and all shareholders of Defendant, agree that upon entry of
28 the order of forfeiture, such order shall be final as to Defendant, except as to Defendant’s
ISP, 6*
Forfeitu re Addendu m

Page 1 of 4

Def. Initials

1 right to challenge the forfeiture on Eight Amendment grounds at the sentencing hearing as
2 described above. Defendant agrees to immediately withdraw any claims in pending admin1

!

3 istrative or civil forfeiture proceedings to properties seized in connection with this case that
4 are directly or indirectly related to the criminal conduct. Defendant agrees to execute all
5 documents requested by the United States to facilitate or complete the forfeiture process

6 upon entry of a final order of forfeiture. Defendant, its shareholders, officers, employees,
7 and agents further agree not to contest the forfeiture of property subject to forfeiture in this

8 case. Contesting the forfeiture shall constitute a material breach of the plea agreement,
9 relieving the United States of all its obligations under the agreement including but not lim•i

10 ited to its agreement to recommend an adjustment for Acceptance of Responsibility. De­
11 fendant, and all shareholders of Defendant, agree that the criminal forfeiture money judg­
12 ment imposed by the Court will be (i) subject to immediate enforcement, and (ii) submitted
13 to the Treasury Offset Program so that any federal payment or transfer of returned property
14 the Defendant receives may be offset and applied to the outstanding balance on the forfei­
15 ture judgment.
16

E.

Entry'of Orders of Forfeiture and Waiver of Notice. Defendant, and all share­

17 holders of Defendant, consent and agree to the entry of orders of forfeiture for such prop­
18 erty and each waive the requirements of Federal Rules of Criminal Procedure 32.2 and
19 43(a) regarding notice of the forfeiture in the charging instrument, announcement of the
20 forfeiture at sentencing, and incorporation of the forfeiture in the judgment. Defendant un­
21 derstands that the forfeiture of assets is part of the sentence that may be imposed in this
22 case and waives any failure by the Court to advise Defendant of this, pursuant to Rule
23 1 l(b)(l)(J), at the time the Court accepts the guilty plea(s).
24

F.

Waiver of Constitutional and Statutory Challenges. Defendant, and all of its

25 shareholders, further agree to waive all constitutional and statutory challenges (including
26 direct appeal, habeas corpus, or any other means) to any forfeiture carried out in accordance
27 with this agreement, except that Defendant may challenge the forfeiture at the sentencing
28 hearing pursuant to the Eighth Amendment of the United States Constitution. Defendant,
r orlosturc Addetkkrm

2
Page 2 of 4

Def. Initials ILajA
16CR0729-BAS

1 its shareholders, officers, employees, and agents agree to take all. steps as requested by the
2 United States to pass clear title to forfeitable assets to the United States and to testify truth­
3

i

fully in any judicial forfeiture proceeding.
G.

4

Agreement Survives Defendant: No Forfeiture Abatement. Defendant, and all
)

5

shareholders of Defendant, agree that the forfeiture provisions .1:of this plea agreement and
:■

(

6 forfeiture addendum are intended to, and will, survive Defendant, notwithstanding the
7 abatement of any underlying criminal conviction after the execution of this agreement. The

8 forfeitability of any particular property pursuant to this agreement shall be determined as
r.

9 if Defendant had survived, and that determination shall be binding upon Defendant’s heirs,
10 successors, and assigns until the agreed forfeiture, including any agreed money judgment
11 amount, is collected in full.
12

!:

///

13 III
14
15
I;

16

f

17
18
19

!

20

i
?

21
22
23
24

25
26
27
!

28

Page 3 of 4
Forfeiture Addendinn

3

Def. Initials
16CR0729-BAS

H.

1

!

Substitute Assets/Collection of Judgment. Defendant, and all shareholders of

' 1

' '

:=

1

2 Defendant, acknowledge and agree that the forfeiture in this case includes entry of a money

3 judgment against Defendant. Interest shall accrue on the judgment from the date of entry
4 of the Order of Forfeiture and shall accrue thereon in accordance with 18 U.S.C. § 3612(f)
!

5

and 28 U.S.C. § 1961. Defendant, and all shareholders of Defendant, agree that the United
!

-

i

6 States may take all actions available to it to collect the full amount of the judgment, includ' - I"

■

;

7 ing enforcement of the judgment against substitute assets as provided in 21 U.S.C. § 853(p)
8

and actions available under the Federal Debt Collections Procedure Act.
?

9

ALANA W. ROBINSON
Acting Unitedi States Attorney

10
11
12

dated

lO'ho-T

13

io-i<s-n

14
15

DATED

Orlarido^B. potierrez
DanierC. Silva
Assistant U.S. Attorneys

Richard M. Barnett
Defense Counsel

16
17 DATED
18
19

v.
Jtiimanshu Singh' as
President, Chief Executive Officer,
and Shareholder of
Defendant Lovely Singh, Inc.
rC

20

21

DA

22

Lankwinder Singh^ akar^Victof’, as
Secretary, ChierFmancial Officer,
and Shareholder of
Defendant Lovely Singh, Inc.

23
24
25

26
27
28
forieilare Addendum

4
Page 4 of 4

Def. Initials Hsif#
16CR0729-BAS

APPENDIX-E
Sentencing Hearing Transcript, Lahkwinder Singh, Selected Pages

A - 5

1

1

United States District Court

2

For the Southern District of California

3
4
5

6

UNITED STATES OF AMERICA,
Plaintiff,

v.

7

LAHKWINDER SINGH, et al . ,

8

Defendants.

)
)
)
)
)
)
)
)
)
)
)

No. 16cr0729-BAS

September 7, 2018
San Diego, California

9
Transcript of Sentencing Hearing
BEFORE THE HONORABLE CYNTHIA BASHANT
United States District Judge

10
11
12

APPEARANCES:

13

For the Plaintiff:

UNITED STATES ATTORNEY'S OFFICE
ORLANDO GUTIERREZ
DANIEL SILVA
Assistant united States Attorneys

For Defendant Singh:

BOYCE & SCHAEFER
ROBERT EVANS BOYCE
Attorney at Law

14
15
16
17

RICHARD MARK BARNETT
Attorney at Law

18
19

For Defendant
Lovely Singh, Inc. :

FRANK THOMAS VECCHIONE
Attorney at Law

20
21
22
Court Reporter:
23
24

Dana Peabody, RDR, CRC
District Court Clerk's Office
333 West Broadway, Suite 420
San Diego, California, 92101
DanaPeabodyCSR@gmai1.com

25
Page 1 of 27
Page 1 of Original Document

5

1
2

09:05

09:06

09:06

Postal Annex in Lemon Grove in 2000, and he bought a second one

4

in 2007, which required him to run the Postal Annexes

5

full-time, and then his wife would work in the evenings too.

6

In 2009 the lease on the Encinitas Postal Annex was not
That's where he met

7

renewed, and he moved it to College Grove.

8

Mr. Nava, and Mr. Nava was a carpenter I think at the -- in

9

rebuilding the -- or preparing the College Grove Postal Annex
And Mr. Nava primarily ran the College

10

for them to move into.

11

Grove Postal Annex, and in 2014 that College Grove Postal Annex

12

was closed.
I think one of the questions in this case is whether the

14

bank structuring had anything to do with the passing of pills

15

through the Postal Annex,

16

closely, I don't think that the bank structuring, the money

17

going through the bank, had anything to do with the pills that

18

were going through the Postal Annex.

19

would have occurred regardless if any of those pills had ever

20

gone through a Postal Annex, and but for Mr. Nava, there would

21

have been no pills that ever went through the Postal Annex.

22

All the connections to the pills were directly related to

23

Mr. Nava's connection to Mexico.

24
09:07

when he was working at UCSD and Kaiser, he bought them a

3

13

09:06

wife have put into raising their family.

25

And I think if you look at this

The bank structuring

Now, obviously Mr. Singh did turn a blind eye to what was
happening at the Postal Annex after he received information
Page 2 of 27
Page 5 of Original Document

7

1

that is the only thing that makes any sense as to why he was

2

structuring was just to avoid contact with the government.

3

09:09

09:09

09:10

09:10

09:10

But I also think that if you -- I thought something

4

significant was noted in Mr. Gutierrez's sentencing memorandum

5

which highlights the fact that the structuring did not have

6

anything to do with the pills going through the Postal Annex,

7

and that is that on page 4 of the sentencing memorandum,

8

Mr. Guiterrez notes that -- he says, "Mr. Singh embarked on a

9

scheme in and avoiding detection of law enforcement in the

10

institutions at which he banked.

11

operating the Postal Annexes as licensed money transmitting

12

businesses in 2006 as an agent of Western union."

13

how he became educated on the fact that you had these reporting

14

requirements for amounts over $10,000.

15

Defendant Singh began

And that's

Now, the western union business resulted in people bringing

16

in large amounts of cash to the Postal Annexes because they

17

would buy money orders to pay their rent and pay other

18

utilities.

19

people that Mr, Singh had to put into the bank, and that was

20

what resulted in the structuring.

This amounted to thousands of dollars from these

21

He made probably 1 percent on those transactions.

22

wanted to avoid attention from the government on the pills

23

going through the business, the last thing he's going to do is

24

sign up with western union and say okay, I'm going to get all

25

this business from Western union which is going to result in
Page 3 of 27
Page 7 of Original Document

If he

10

1

09:14

09:14

really the only issue, but also for Mr. Singh, and they overlap

3

tremendously because all the conduct was that of Mr. Singh.
I share in all of the comments made by Mr. Boyce.

5

case — and this is going to apply also to the forfeiture

6

analysis because I know Your Honor can't ignore the elephant in

7

the room, which is the shipment of the pills, but this is a

8

structuring case,

9

plead guilty to a drug count.

He pled guilty to structuring, jne did not
And when you look at structuring

10

from a forfeiture standpoint, i.e., is the forfeiture grossly

11

disproportional to the conduct of the defendant in that

12

particular case, we have to look at Mr. Singh's conduct.

And I'm going to address that in a minute, but —
THE COURT:

Before you do, I mean, on the one hand

15

there's an agreement that it was more than 1.5 million that was

16

structured, and this was proceeds from unlawful activity.

17

09:15

Thi s

4

14

09:15

Not only for the corporation, which is

2

13

09:14

MR. VECCHIONE:

MR. VECCHIONE:

My understanding that the unlawful

18

activity is the structuring.

Some of it is proceeds from the

19

shipment of the pills, but in talking with co-counsel -- I

20

joined the party a little late — they indicated to me don't

21

let that language confuse you.

22

actual structuring,

23

Exhibit — well, it's the chart in our opposition,

24

it's on page 7 where we've analyzed all of the deposits that

25

were made into the corporate account.

We were talking about the

if you look at the — I think it's our

Page 4 of 27
Page 10 of Original Document

I think

And over the course of

r

11

09:15

1

the two years that we're talking about, there was approximately

2

$4 million roughly that went into the two accounts, most of

3

which was money transmissions or money orders.

4

that fleetingly passed through the account literally in less

5

than 24 hours.

6

09:16

09:16

09:17

09:17

It was money

And I'm somewhat taken aback by the fact that this money

7

that never belonged to Mr. Singh, never garnered him a profit

8

other than maybe 1 percent, is going to result in him getting

9

hit with a $2.9 million forfeiture order when in fact if you go

10

back to 2012 and 2013, in 2012 the corporation had a profit of

11

$23,000, and in 2013 it was about $50,000.

12

about $75,000 profit over the two years walking him into a

13

$2.9 million forfeiture.

14

I thought we at least would be there and then talking about how

15

much would be reasonable, so I'm a little taken aback because

16

not only is the 2.9 million grossly disproportional to any

17

profit that Mr. Singh or the corporation made, but when, you

18

look at the offense-, and this is one of the main factors

19

utilized by the Ninth Circuit in United States versus $100,348,

20

they look at the four Bajakajian factors, and I won't go into

21

the history of Bajakajian.

22

believe this case tracks Bajakajian.

23

it also tracks the $100,348.

24

individuals were stopped at airports, asked if they had any.

25

money to declare, one case 5,000, one case 7,000.

So we* re talkina

That is grossly disproportional, and

I'm sure Your Honor is familiar.
It has similarities, and

They were both cases where

Page 5 of t 27
Page 11 of Original Document

I

13

09:19

.

1

is if people were walking in and instead of shipping pills, and

2

we don't know -- we'know for a fact that Mr. Singh didn't know

3

exactly what was in these packages, and most of them were sent

4

from the San Diego Postal Annex while he was working in Lemon

5

Grove.

6

understand what was in the packages, how often they were being

7

shipped, but he was aware a high probability of pills, and I

8

think he came to learn that over time and knew more about it

9

later on.

09:19 ' 10

09:20

09:20

He picked up the money and deposited it, but he didn't

Early on it might have been less obvious, and I

think it actually was being hidden from him, but he's pled

11

guilty, and there are the pills shipments that we have to

12

address.

13

aspirin, stuffed Teddy bears, Mr. Singh would have still been

14

structuring that money.

15

pill shipments is because it's not related to the structuring.

16

His business was related to pill shipments, but the structuring

17

was not.

18

is any evidence caused a structured deposit.

19

were at most 2,000 to $2500 in one day.

20

transactions that were taken out of the first superseding

21

indictment that the government concedes are not structuring.

22

There's deposits of 4,000, 5,000, $3500, all single

23

transactions well under 10,000.

24
09:20

/

25

If people were coming in with vitamin C pills,

The reason it's not related to the

There never was one pill shipment payment that there
We know that they

we see 179

Now, obviously we don't know how many of the pill shipmentdeposits went into those nonstructured transactions.
Page 6 of 27
Page 13 of Original Document

Obviously

14

09:21

09:21

some went into the structure.

2

being treated as an individual who is running this business in

3

order to ship pills and therefore was structuring in order to

4

hide the fact that he's shipping pills.

5

single shipment from the San Diego office as a pill shipment,

6

that's 9 percent of all of the deposits over those two years.

7

And I submit there were packages that didn't contain pills,.

8

We're probably talking 5 to 7 percent of all of the deposits

9

pertained to pill shipments.

10

for structuring.

11

arrived.

12

09:21

09:22

09:22

\

1

But it was happenstance.

He's

If we count every

That wouldn't be the motivation

The structuring exists before the pills

So I can't emphasize strongly enough, Your Honor, that this

13

is a structuring case, not a drug distribution case and that

14

the pill shipments were not the reason for or the motivation

15

behind the structuring.

16

Your Honor looks at this as solely a structuring case, we start

17

out with a maximum statutory fine of 250,000.

18

says but there were many transactions, so we have to look at

19

this differently.

20

Why is that important?

Because if

And Your Honor

well, Congress enacted a statute that if this is a pattern

21

of conduct over a year, over $100,000, you double the maximum

22

fine.

23

Guidelines.

24

penalty for pattern of conduct similar to Mr. Singh.

25

$500,000 maximum statutory.

So the Ninth Circuit says look at the Sentencing
Number one, Congress has written a statutory
It's a

The Ninth Circuit looks at the

Page 7 of,27
Page 14 of Original Document

15

09:22

1

maximum Sentencing Guideline fine,

2

maximum statutory.

3

$100,000 because it was three times more than the maximum

4

Sentencing Guideline fine.

5

fi ne.

6

and the Ninth Circuit found a $100,000 forfeiture to be grossly

7

disproportional when you have a maximum Sentencing Guideline

8

fine of 30,000.

9
09:23

09:24

It was a $250,000 maximum statutory

The Sentencing Guideline fine had a maximum of 30,000,

In this case depending on whether we use the 2014 guideline
or the 2016 for the fine, and I think the guidelines make it

11

clear that you use the 2014 if the offense ended before

12

November of 2014, which this count did, but either way the

13

government might differ with that.
The 2014 guidelines at the time this offense occurred,

15

structuring with this guideline level of 25 resulted in a

16

maximum guideline fine of $100,000.

17

guideline range, it's a maximum of $200,000.

If we use the 2016

18

So Congress considered pattern of conduct as did the

19

Sentencing Commission because you get to this guideline range

20

by adding on two levels for the pattern of conduct,

21

hit with it twice, the maximum statutory fine and the maximum

22

Sentencing Guideline fine.

23

09:24

And in $100,348 it reversed a seizure of

10

14
09:23

It doesn't look at the

He gets

So it is all taken into consideration, and looking at it in

24

light most favorable to the government, we have a maximum

25

Sentencing Guideline fine of 200,000.
Page 8 of, 27
Page 15 of Original Document

we have a maximum

16

09:24

09:25

09:25

09:25

09:26

They're asking for $3 million.

1

statutory fine of 500,000.

2

That's 15 times the maximum Sentencing Guideline fine.

3

Ninth Circuit reversed a forfeiture that was three times more

4

than the maximum Sentencing Guideline fine.

5

The

So, Your Honor, I think it's important that we look at this

6

as a structuring case,

we look at the maximum Sentencing

7

Guideline fine.

8

recommended a forfeiture of 200,000 for Mr. Singh.

9

any forfeiture between 200 and 500,000 would be reasonable and

We look at the maximum statutory fine.

We had

I would say

If Your Honor gets

10

would pass muster with the Ninth Circuit,

11

into the government's $3 million range, it is at such a

12

multiple of the Sentencing Guideline fine maximum that it

13

clearly would be grossly disproportionate to the conduct of

14

Mr. Singh.

15

with regard to the corporation, the corporation essentially

16

owned the two Postal Annexes, Lemon Grove and San Diego.

17

San Diego was sold in 2014.

18

Presently the corporation is operating no business,

19

closely held corporation owned by Mr. Singh and his wife.

20

not a Fortune 500 company, and it is only active today in order

21

to defend this litigation,

22

to stay active to defend against litigation.

23

Court is aware in fashioning any order or modification of

24

forfeiture, the corporation has no assets,

25

of the corporation was the conduct of Mr. Singh.

Lemon Grove was sold in 2017.

It i s a
it's

in fact, California law requires it

Page 9 of 27
Page 16 of Original Document

So just so the

All of the conduct
if you look

29

09:45

2.9 was involved in structuring or was structured,

2

put to our paces to argue that beyond a reasonable doubt.

3

in terms of the gravity of the offense, over this, I don't

4

know, I think it was 25, 26-month period, nearly $5 million in

5

cash went into these accounts.

6

Your Honor, that maybe three -- maybe four were over $10,000 in

7

cash deposits.

8

09:45

09:46

And I think it's worth noting,

On the flip side, as Special Agent Gogley detailed
throughout the expert report, there were repeated aggravating

10

factors in this case, and I've touched on them, but I want to

11

make sure I end with this.
THE COURT:

Before you end with that, so you talk

13

about the 4 to $5 million, and then you go down -- I guess I'm

14

not completely clear how you come up.

15

there was an agreement as part of the plea agreement that the

16

2.9 million was the amount involved in the structuring.

17

not clear where that comes from.

18

plea agreement?

I do understand that

I'm

Just an agreement for the

19

MR. SILVA:

No, that was alleged in the indictment.

20

THE COURT:

But how did you get down to that from the

.21
22

09:46

But

9

12

09:46

We would be

1

4 to 5 million?
MR. SILVA:

Well, you get down to it because you look

23

at it, and the challenge, Your Honor, in these cases and why

24

maybe the Court and the U.S. Attorney's office may not bring

25

these often is you have 12 strangers trying to figure out this
Page 10 of 27
Page 29 of Original Document

31

1

09:48

09:48

MR. SILVA:

2

just to be clear, the statutory maximum fine for Mr. Singh is

3

$500,000 in this case.

4

corporation, for Lovely Singh, Inc., is $1 million, so that's

5

$1.5 million.

6

forfeiture of double that.

7

Sentencing Guidelines, however, are different.

8

Guidelines, I had it under a 27 the fine range for Lovely

9

Singh, Inc. is between 5.1 and $10.2 million under the

10

09:49

09:49

The statutory maximum fine for the

The government is effectively asking for a
Does that make sense?

The

The Sentencing

guidelines.
THE COURT:

11

09:48

The last thing i'll say on the forfeiture,

How did you get that?

is that based

12

on -- because there's a provision that says twice the gross

13

gain, and part of the problem I have is I'm not sure it's clear

14

from the record that this was a gain to Mr. Singh.

15

MR. SILVA:

That's a good clarification, Your Honor.

16

So just to be clear, probation recommended that the fine should

17

be, I believe, $5.8 million.

18

that.

19

we're not saying this is a gross gain.

20

United States did in its sentencing memo for the corporation at

21

least was based on chapter 8 of the Sentencing Guidelines.

22

that's where you come up with the culpability score on the

23

underlying crime, and then there's a multiplier, and so based

24

on that, the government got to 5.1 to $10.2 million,

25

corporation didn't — I'm not positive, so excuse me.

The government is not requesting

I think the government would agree with the Court that

Page 11 of 27

Page 31 of Original Document

The analysis that the

And

Now, the

I don't

32

09:49

1

think they filed any sort of analysis of how they reached a

2

fi ne.

3

assets of the corporation, so the Court's forfeiture would be

4

sort of moot, but the government, even if it reduced its

5

culpability score, if it reduced the guideline range, that

6

would still be well above the $2.9 million forfeiture against

7

the corporation that the government is requesting.

8

9
09:50

09:50

09:50

09:50

I think as Mr. Vecchione made clear, look, there's no

THE COURT:

I'm not sure-there's a direct correlation

between the fine and the forfeiture.

10

MR. SILVA:

That's a good point.

11

THE COURT:

I understand that's the defense's argument

12

that shows that it's grossly disproportionate.

13

it's limited by the sentencing guideline range.

I'm not sure

14

MR. SILVA:

It's a factor for the Court to consider.

15

THE COURT:

It's a factor.

16

MR. SILVA:

One other thing, and we started off our

17

analysis of one of these -- one of the papers that were put in

18

front of the Court, one of the courts said look, how do you

19

determine the gravity of the offense?

20

gross proportionality?

21

initial understanding by many of these courts as they did this

22

analysis throughout all the authority that this is a difficult

23

analysis, and Congress has decided that there is at least three

24

types of sentencing issues that the Court can hand down.

25

A fine.

And forfeiture.

How do you determine the

And what there was was there was an

Right.

Jail.

So all three of those, none

Page 12 qf 27

Page 32 of Original Document

33

09:51

09:51

09:51

1

of them are mutually exclusive.

2

attaches a fine does not limit the amount of forfeiture that

3

the Court can hand down.

4

forfeiture doesn't mean it then reduces that incarceration.

5

And so I would only say that that the $2.9 million here is

6

.exact1y what Congress expected to happen; namely, someone

7

structures with the corporation.

8

l^arge fine, and they also are subject to a very large

9

forfeiture ofall property involved in the offense of .

09:52

Just because the Court has a large

They are subject to a very

10

conviction.

11

type of sentence that the united States is requesting today in

12

that the corporation and the individual, these two working in

13

tandem, that one was a corporation and the other was a person,

14

that there's a total $2.9 million forfeiture.

15

clear, Your Honor

16

orders, each in the amount of $2.9 mi Hi o n.

17

it to add up to that.

18

09:52

Just because the Court

And so I think Congress would envision exactly the

So that's to be

is we're not asking for two forfeiture

You know, we want

Secondly, that the individual responsible for this conduct

19

would be risking jail time as a felony.

20

has not requested a fine.

21

with that because what we said was both the defendant

22

individually and the defendant in a corporate manner understand

23

that there is a forfeiture and that it will be large,

24

because of that, the government doesn't see any need to ask for

25

a fine on top of that.

Right,

Now, the government

we have totally dispensed

Page 13, of 27
Page 33 of Original Document

And

34

1

09:52

3

$2.9 million or whatever forfeiture I decide and make it

4

jointly and severally liable or do I have to impose a

5

forfeiture on the corporation and then a separate forfeiture on

6

Mr. Singh and make them add up to 2.9 or whatever my total

7

amount is?
That's somewhat of an academic question at

this point because there's a lot of flux in the law right now.
There are recent Supreme Court cases that have kind of thrown

11

it up in the air.

12

totally positive where it stands in the Ninth Circuit.

There's also new circuit law, so I'm not

13

THE COURT:

what are you requesting today?

14

MR. SILVA:

what we're requesting is that the Court

15

17
18

add them up.
THE COURT:

$1 million fine to the corporation and 1.9

to Mr. Singh?
MR. SILVA:

Yes, that exact request would be exactly

19

what we would look for.

20

that we would like to discuss, but I think we've taken much of

21

the Court's time.

22

09:53

MR. SILVA:

10

16

09:53

So if you're

requesting that it add up to 2.9 million, can I order a

9

09:53

I have one other question.

2

8

09:52

THE COURT:

Exactly.

There's a little bit more

I just want to again offer that there are witnesses here

23

prepared to testify if the Court needs any clarification or if

24

it wants the United States to come up with any more — I think

25

we're prepared to do it today.

That's why we requested this

Page 14 of^27
Page 34 of Original Document

39

10:00

10:00

10:00

10:01

10:01

1

significantly, a year or two for a couple million is generally

2

what ends up happening, even after the cooperation.

3

a recent case out of the Central District of California

4

similarly where there was a doctor misprescribing opioids.

5

he was getting paid for it.

6

bank, and I believe that was 500 to 600,000, and I think he got

7

somewhere between 30 and 40 months, right, so you now have

8

multiples of that and about the same recommendation.

9

the united States basically thought look, 40 months is an

There was

And

And he was structuring at his

And so

10

adequate deterrent both specifically to Mr. Singh but also to

11

the public at large because I do think there is a

12

misperception, Your Honor, that structuring is not bad.

You

13

know, it's not money laundering.

But

14

this is just as insidious as any of those crimes as Congress

15

has laid out with the high sentencing factors as borne out as

16

shown to the Court that Mr. Nava is actually facing a little

17

bit less than Mr. Singh is for different crimes that they pled

18

to.

19

THE COURT:

20

MR. GUTIERREZ:

21

the

22

MR. GUTIERREZ:

COURT:

Okay.

It's not tax evasion.

Thank you.

Do you mind, Your Honor?

Mr. Guiterrez, go ahead.
If I could just put in perspective,

23

you asked Mr. Nava's sentencing exposure.

24

converted kilograms of marijuana, and I want to be careful and

25

explain to the Court why it is the guidelines are as they are
Page 15 of 27
page 39 of Original Document

It is based on 325

40

1
2

10:01

10:02

10:02

10:02

10:02

as they were charged against Mr. Singh and Mr. Nava pled to.
This business for a period of many years, for 20 to 50
And

3

packages a day, were sending opioids across the country.

4

they were getting money from that,

5

that when we made the charging decision to charge the drug

6

offenses against both defendants, it was based only on what we

7

were able to seize.'

8

coming across, and she was caught, and she told them I'm going

9

to this Postal Annex, so that's where we got the guidelines for

But the important thing is

On one point in time one courier was

And it's a little bit misleading

10

Mr. Nava for Mr. Singh.

11

because you might think well, only 40 months, that must not

12

have been a lot of drugs,

13

day, and that's what the guidelines come to because 2D1.1

14

requires us to correlate drugs to time.

15

only drugs that we actually seized.

16

more and we talked to Nava and we saw Mr. Singh's conduct, we

17

knew that there was an operation.

18

a list because there were so many, 20 to 50 overnight packages

19

that they wanted them beforehand, and on the day Mr. Singh was

20

arrested, Nava was detained at the port, and he was already

21

processing the order by the time the authorities came.

22

were times when he would do it by himself.

23

when Mr. Nava would do it himself.

24

THE COURT:

25

MR. GUTIERREZ:

That was just one courier on one

You say "he."

And those were the

But when we investigated

The organization would send

There

There were times

You mean Mr. Singh?

Mr. Sinqh would get the email, would

Page 16 of 27
Page 40 of Original Document

41

10:03

10:03

1

package the drugs, and ship them out, and he would sometimes --

2

and we even followed him -- would go to different shipping

3

places.

4

used.

5

40-month drug case because if we were to tabulate 30 to 50

6

packages a day over a period of conservatively of 26 months,

7

the guidelines would be much more severe, and it goes to show

8

that his motive to hide what he was doing was more commensurate

9

with what we weren't able to charge and determine, so I just

10

want to put in perspective what it was he was actually doing

11

with regard to the drugs.

10:03

10:04

So I don't want the Court to think that this is only a

12

THE COURT:

Anything from probation?

13

PROBATION:

Your Honor, Carlos De La Toba on behalf of

14
10:03

A post office at a shopping mall that he owns was also

U.S. Probation.

No information.

15

THE COURT:

Okay.

16

MR. BOYCE:

Yes, I'd like to respond.

17

THE COURT:

Sure.

18

MR. BOYCE:

Just to circle back to what they've

Anything further?

19

brought up regarding the drug case in this case, and I think

20

that this began in 2008 when Mr. Nava was hired by Mr. Singh,

21

and what Mr. Nava would say and what he told the agents was

22

that shortly after he was hired, he was approached by these two

23

individuals, Garcia and Dicianno, and these people were

24

connected to people that Mr. Nava knew in Mexico, and also

25

other people were arrested that Mr. Nava had known, and what
Page 17 of 27
Page 41 of Original Document

43

10:06

1

and the government did nothing either.

2

back in 2013 and 2014.

3

through.

4

UPS should have done something back then to stop the shipments,,

5

but that didn't happen.

6

through UPS.

7

through the postal service.

8
9
10:06

10:06

10:07

10:07

They were aware of it

And these shipments continue to go

Mr. Singh, maybe like the government — maybe like

98 percent of these packages went

Only a small percentage went through FedEx or

And this interview that Mr. Silva was talking about where
there was a -- they sent an informant in, and the

10

informant — there was supposed to be a transcript, wear a

11

transcript, but the recording apparently malfunctioned, but the

12

informant came in asking for Mr. Nava.

13

so the informant talked to Mr. Singh about wanting to ship

14

packages through UPS, and Mr. Singh gave him a list of prices

15

about how much the packages would cost, the normal shipping

16

costs, of packages using UPS through the Postal Annex.

17

this conversation Mr. Nava came into the store, and at that

18

point the confidential informant and Mr. Nava had a

19

conversation in which apparently they were whispering and

20

Mr. Nava was talking to the informant about coming back into

21

the business of shipping these apparently pills through

22

the -- if this informant was going to continue shipping pills

23

through the postal service.

24

as to how the pill business was working, and it certainly was

25

Mr. Singh who turned a blind eye to this, and probably

Mr. Nava wasn't there,

Duri ng

But that was a little background

Page 18 of 27
Page 43 of Original Document

44

1

'shouldn't have, but Mr. Singh did not need to use the

V

2

structuring to conceal the pills shipped through the Postal

3

Annex.

4
10:08

10:08

5

business, it only drew attention to Mr. Singh and the

6

structuring, only concealed the legitimate money that was

7

coming through the .Postal Annex because there was no day in

8

which the amount of these packages that were shipped through

9

the Postal Annex would ever have exceeded at most $2500.

10

never got up to $10,000.

11

western union business through the Postal Annex was it was

12

drawing attention to Mr. Singh's business.

13

10:08

10:09

10:09

And the irony is that by bringing in this Western Union

It

So the only thing by bringing this

And I comment about the disparity of the sentence, and

14

that's why they're requesting a 40-month sentence which they

15

say is one of the higher amounts —the higher sentences that's

16

imposed on somebody that has been convicted or pled guilty to

17

structuring.

18

you've got actual money laundering going on.

19

money laundering here because there was no necessity to -- only

20

1 to 10 percent of the money that was going through the banks

21

was due to these pill shipments, to the UPS costs of shipping

22

these pills.

23

structured was legitimate money that did not even -- most of it

24

did not even belong to Mr. Singh, but rather went to pay rent

25

and utility bills.

And that is including drug organizations where
There was no

90 percent of that money that was being

So the disparity is really that Mr. Singh

Page 19 of 27

Page 44 of Original Document

46

1

packages sent from the Postal Annexes contained a prohibited

2

controlled substance, and he deliberately avoided learning the

3

truth of their contents, closed guote.

4
10:11

5

hundreds of packages, both defendants were.

6

believed the funds were proceeds of unlawful activity and

7

intended to promote unlawful activity."

8
9
10:12

10

10:12

10:12

So I'm relying guite a bit on the factual basis in ruling
on my objections.

J-/A//Z-

lAJ/Ovd €r -//oT /?

Objection number 2 to page 5, paragraph 4, 14, Mr. Singh

denies shipping packages to various commercial shipping

12

services to avoid detection.

.

I will overrule that objection.

Objection number 3, page 5, paragraph 15, he was aware of a

14

high probability that hundreds of packages from his Postal

15

Annexes had illegal substances and deliberately avoided

16

learning the truth.

17

factual basis, so I will overrule that objection.

I think that directly is belied by the

18

Objection number 4 to page 6, paragraph 22, he knew or

19

believed that these were the proceeds of unlawful activity.

20

Again, I will overrule that objection.

21

10:13

Mr. Singh knew or

11

13

a/o

And Paragraph 16, "He was a packager and shipper of

Number 5, page 13, paragraph 80 and also page 15, paragraph

22

94, that he agreed to the 2.9 forfeiture,

23

objection,

24

forfeiture.

25

that was involved and that there should be a preliminary

I'll sustain that

I will note that he didn't agree to the 2.9
He just agreed that that was the amount of money

Page 20 of, 27
Page 46 of Original Document

47

1

forfeiture, but reserved the right to contest it on Eighth

2

Amendment grounds.

3

10:13

10:14

10:14

paragraph 115, that the fine range is not 20,000 to $500,000.

5

I think the probation officer agreed that should be sustained,

6

and it's actually 20,000 to $200,000.

7

and overrule in part.

I think Mr. Singh argued that it should

8

be 10,000 to 100,000.

I find it should be 20,000 to 200,000.

So i'll sustain in part

Number 7, page 15, paragraph 97, a large portion of the

10

money structured was from illegal activity.

11

objection.

12

clear how much of the money structured was from i11egal

13

activity and how much was not, so I think saying it was a large

14

portion is perhaps overstating the situation.

15

I'll sustain that

At this point I don't know that it's absolutely

The eighth objection, page 16, paragraph 101, two Postal

16

Annexes were not involved in a multi-year scheme to mail

17

controlled substances throughout the U.S. and did not structure

18

the 3 million in bank proceeds believing they were funds from

19

drug trafficking.

20
21
22

10:15

Objection number 6 to page 14, Paragraph 88 and page 17,

4

9
10:13

So i'll sustain that objection.

I will overrule that objection as well.

with respect to the objections of Lovely Singh, several of
them are repetitive.
I think page 9, paragraph 45 with respect to the minus

23

three for acceptance of responsibility, I don't think that's

24

really applicable to a corporation.

25

reasons stated in the probation officer's addendum.

I will overrule for the

Page 21-of 27

Page 47 of Original Document

48

10:15

1

Page 10, paragraph 40 where it talks about the fine, and I

2

think ultimately that's going to be moot because I'm not going

3

to impose a fine in this case.

4

Page 10, paragraph 64, agree to forfeit 3.9 million or

5

agree to forfeit up to 2.9 million, for the same reasons I

6

sustained the objection with respect to Mr. Singh I will

7

sustain that objection.

8
9
10:15

will sustain.

11

structuring, not a scheme to mail packages containing

12

controlled substances, so I'll sustain that objection.

14

10:16

I_

I agree that the instant offense involves

Page 12, paragraph 79 again has to do with agreeing to
forfeit the 2.9 million, and I'll sustain that objection.

15

I think that covers all the objections.

16

Mr. Boyce, would you agree?

17

MR. BOYCE:

Yes, Your Honor.

18

THE COURT:

Okfiy.

19

MR. VECCHIONE:

20

the court:

Would you agree, Mr. Vecchione?

Yes, Your Honor.

okay.

Now, let's talk about the

21

underlying case, and I think it's important also’ I make two

22

factual findings that I think also Implicate the decisions that

23

I make with respect to sentencing.

24
10:16

scheme to mail packages containing controlled substance.

10

13

10:16

Page 12, paragraph 77, the instant offense involves a

25

First of all, I find that the reason for the structuring
was to avoid the attention of the government.
Page 22 of 27
Page 48 of Original Document

And I find that

49

10:16

10:17

10:17

10:17

10:18

1

the reason Mr. Singh wanted to avoid the attention of the

2

government was to avoid detection that he was shipping illegal

3

drugs, maybe initially shipping jewelry illegally and then

4

eventually shipping illegal drugs.

5

argued that the reason for the structuring was because he

6

didn't like the government or for some other reason, I don't

7

find that to be the case.

8

significant that he had training as a Western union agent.

9

think that belies the argument that he's just an ignorant

So to the extent Mr. Singh

And I think it's particularly
I

10

immigrant who was just sort of avoiding the government because

11

they made him nervous, and I think it's a much more intentional

12

act than that.

13

doing.

14

sentencing.

15

He is a bright man who knew exactly what he was

So I think that all affects where I come down on the

First of all, with respect to the guideline calculations, I
I find the base

16

don't think there's a great disagreement.

17

offense level is a six.

18

more than 1.5 million and less than 3.5 million structured.

19

I'll add two points under 2sl.3(b)(2) because there was a

20

pattern of unlawful activity involving more than 100*000 in a

21

12-month period.

22

because it was the proceeds from unlawful activity,

23

add two points because there was abuse of a position of trust.

24

I find Mr. Singh has accepted responsibility for what he did,

25

so I will deduct three points.

I will add 18 points because there was

I will add two points under 2sl.3(b)(1)(A)
And I will

I find he has no criminal

Page 23 of 27 ■
Page 49 of Original Document

50

1
2

10:18

10:18

10:19

10:19

so his guideline range is 57 to 71 months,

with respect to the underlying sentence, I have considered,

3

first of all, the nature and circumstances of the offense, and

4

I do agree with the government that this is a serious

5

structuring case.

6

with their life savings in their fanny pack that they didn't

7

declare at the border.

8

And this was a sophisticated structuring.

9

that into consideration, and, as I said before, I do find that

10

the reason for that structuring was to avoid the attention of

11

the government because there were illegal things going on at

12

the Postal Annex.

This is not someone caught at the border

This was over a long period of time.
And so I am taking

13

I have also taken into consideration Mr. Singh’s history

14

and characteristics, the fact that he has no criminal record,

15

the fact that he has done a wonderful job in raising his

16

children, that he has always been gainfully employed, that he

17

has been a productive member of the community,

18

that into consideration as well.

19
10:19

record

So I've taken

I think I've already discussed the seriousness of the

20

offense, bgt I do think it's very important, the deterrence,

21

not just for Mr. Singh, because I believe at this point

22

Mr. Singh, especially having this case drag on for so long

23

very much regret what he did and would not repeat that, but I

24

think, as the government points out, it is very important.

25

Drug traffickers cannot complete what they do without the
Page 24 of 27
Page 50 of Original Document

may

51

10:20

10:20

1

support of the money people, and Mr. Singh was one of those

2

money people.

3

structuring in general to avoid the detention of the

4

government.

5

system, and Mr. Singh knew exactly what he was doing, and so X

6

do take into consideration the need to deter other people from

7

doing similar offenses.

10:20

10:21

Structuring is an important part of the financial

8

And then I have taken into consideration the fact that

9

there may be disparity not only of sentences with Mr. Nava, who

10

was basically a co-defendant, but also other structuring cases

11

across the country, as the government points out, so I've taken

12

into consideration all of those factors.

13

10:20

And I think it's very important also, just the

And I do find that a three-year sentence or 36 months in.

14

custody is sufficient but not greater than necessary to satisfy

15

the policies of 3553(a).

16

followed by three years of supervised release.

17

three years you are not to engage in any employment or

18

profession involving fiduciary responsibilities.

19

report any vehicles you own or operate.

20

can search you or your property to see if you're having illegal

21

things on you, any money on you.

22

all personal and business financial records.

23

open any new checking accounts or credit charges or lines of

24

credit without the permission of the probation department.

25

I also find that that should be

I will not impose a fine.

During that

You're to

The probation office

You're to completely disclose
You're not to

I find Mr. Singh does not have

Page 25 of- 27
Page 51 of Original Document

52

1

the ability to pay a fine, particularly in light of. the

2

forfeiture that I am going to impose, and I will impose a $100

3

special assessment.

4
10:21

10:21

10:22

5

MR. BOYCE:

Sorry to interrupt.

6

THE court:

NO, that's okay.

7

MR. BOYCE:

I did note that when you were going

8

through the guidelines, you said I believe he started at base

9

offense level six and added 18.

10:22

THE COURT:

10

I think you meant 16.

I think it's 22 overall — oh, 16, yes,

11

you're right, I'm sorry.

12

Correct.

I wrote the wrong number down.

16.

I think I ended up at the right place.

13

MR. BOYCE:

YOU did.

14

THE COURT:

I just said the wrong number.

Okay.

Yes

15

six plus 16, plus two, plus two, plus two for a 28 minus three

16

for a 25.

17

MR. SILVA:

That's right, Your Honor.

18

THE COURT:

57 to 71 months.

19
10:22

with respect to the forfeiture.

Let's talk about the forfeiture.

I understand there's an

20

argument that this is grossly disproportionate to the gravity

21

of Mr. Singh's offense, and I have considered, first of all,

22

the nature and extent of the crime.

23

outlined how serious I think this crime is.

24

considered whether this violation is related to other illegal

25

activities.

It is.

I think I've pretty much
I think I've

And I have considered other penalties that

^Page 26 of 27
Page 52 of Original Document

53

10:23

10:23

10:23

10:24

10:24

1

can be imposed and the extent of harm caused.

2

ultimately I am concerned that Mr. Singh hid by playing this

3

shell game of moving the money around.

4

particularly hard to find out how much he made, how much was

5

laundered, and it was a very serious offense.

6

three years.

7

were a number of bank accounts and financial institutions

8

involved. 'He played a very important role in the financial

9

system because he was qualified as a Western union agent.

I think

It makes it

It occurred over

It involved at least 450 transactions.

There

10

also was a compliance officer, BSA/AML compliance officer.

11

wasn't some

12

who didn't understand the importance of not structuring and

13

filing these forms.

14

structured was the proceeds of drug trafficking.

15

And
He

as I mentioned before, poor, suspecting immigrant

And at least some of the money being

So I do find that the recommended forfeiture by the

16

government is appropriate in this case.

17

relationship to the gravity of the offense, and at this point I

18

will order forfeiture in the amount of $1,955,521 for

19

Mr. Singh.

20

I find that it has a

With respect to Lovely Singh, Inc., I find that the base

21

offense level is six plus 16 plus two because the proceeds were

22

the proceeds of unlawful activity, plus two because it involved

23

over 100,000 in a 12-month period for a total of 26.

24

pecuniary gain is 2.9 million. . The base fine is 6.5 million

25

but that's limited by the $1 million maximum.
Page 27 of 27
Page 53 of Original Document

The

The culpability

APPENDIX-F
Appellant's Opening Brief in the United States
for the Ninth Circuit, Selected pages

A - 6

Court of Appeals

IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

U.S.C.A. Case 18-50332
U.S.D.C. Case 16cr729-BAS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

LAHKWINDER SINGH,
Defendant-Appel lant.
Appeal from the United States District Court
for the Southern District of California
Honorable Cynthia Bashant, ludge Presiding

APPELLANT S OPENING BRIEF

LAURA SCHAEFER
California State Bar No. 138801
934 23rd Street
San Diego, CA 92102
(619)232-3320
ls@boyce-schaefer.com
Attorney for Defen dant-Appel lant
LAHKWINDER SINGH
1

Page 1 of 3

' A
/ J:

I

I

“this information has some value to the government because it may facilitate
investigation of other crimes, the harm is ‘minimal.’” Id. at 1123.
Here, Singh deposited cash in amounts less than $10,000 preventing the
transactions from being reported to the government, and depriving the government
of information. Although as a BSA Officer Singh knew the structuring was illegal,
his officer status did not cause additional harm. Thus, the harm flowing from
Singh’s structuring cannot support the amount of the forfeiture imposed in this
case.
5.

Other relevant factors.

Other factors may be relevant to determine the harshness of a fine, including
the financial hardship caused by the forfeiture. This Court has suggested that it
will consider “deprivation of livelihood” in the proportionality analysis. United
States v. Hantzis, 403 F. App'x 170, 172 (9th Cir. 2010); United States v. Real
Prop. Located in El Dorado City, 59 F.3d 974, 985-86 (9th Cir. 1995), abrogated
in part on other grounds by Ba.jaka.jian, 524 U.S. 321; United States v. Levesque,
546 F.3d 78, 83 (1st Cir. 2008) (Excessive Fines Clause analysis should “consider
whether forfeiture would deprive the defendant of his or her livelihood.”)
Singh’s net worth at the time of sentencing was approximately $1.5 million,
consisting mainly of his family home and a commercial property, both burdened
32
Page 2 of 3

Page 32 of Original Document

with fairly high mortgages, and two family cars. CR 130, PSR pp. 12-13. Even if
he sold these assets, he would still be half a million dollars in debt. Singh was
sentenced to three years in prison which has, and will continue to have, a
significant negative impact on his finances. Singh will be 62 when he is released
from custody; he suffers from several health conditions, including diabetes. CR
130, PSR, p. 11. Although Singh’s average annual income in the three years *
preceding his arrest was just under $200,000, he cannot return to his former
occupation and is forbidden from any employment that requires fiduciary
responsibilities. CR 165, p. 4, ER 62. He will be unable to sustain an income
anywhere near amounts he formerly earned upon his release. CR 130, PSR, p. 13.
It is doubtful that Singh, at this point in his life, will ever be able to satisfy this
debt to the government; this sanction amounts to a financial tsunami for Singh and
his family. This factor, as well, justifies reduction of the forfeiture imposed in this
case.
CONCLUSION
The forfeiture order of $1,955,521 is nearly twenty times the high-end fine
recommended by the Guidelines. The connection of the structuring to the drug
shipment activity, if any, is nominal; the bulk of funds structured came from the
legitimate money services and shipping business, lessening the severity of the
33
Page 3 of 3

Page 33 of Original Document

